Audit of Management Activities of USAID/Nicaragua’s
Cognizant Technical Officers

Audit Report No. 1-524-05-004-P

January 26, 2005




              San Salvador, El Salvador
January 26, 2005


MEMORANDUM
FOR:           USAID/Nicaragua Director, James Vermillion

FROM:          RIG/San Salvador, Steven H. Bernstein “/s/“

SUBJECT:       Audit of Management Activities of USAID/Nicaragua’s Cognizant
               Technical Officers (Report No. 1-524-05-004-P)


This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

This report contains four recommendations for your action. Based on your
comments, management decisions have been reached for these recommendations.
Determination of final action will be made by the Bureau for Management’s Office
of Management Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                                  1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results                                             5
Contents
           Background                                                     5

           Audit Objective                                                6

           Audit Findings                                                 6

                  Were USAID/Nicaragua’s Cognizant Technical Officers
                  managing implementation activities in accordance with
                  USAID policies?                                         6

                         Indirect Cost Rate Adjustments
                         Should Be Reviewed                               8

                         Regular Site Visits Should Be Conducted          9

                         Variance Analysis of Performance and
                         Financial Results Should Be Performed            11

                         Recipient’s Program Effectiveness
                         Should Be Evaluated at End of Program            13

           Evaluation of Management Comments                              14

           Appendix I – Scope and Methodology                             15

           Appendix II – Management Comments                              17




                                                                              3
(This page intentionally left blank.)




                                        4
Summary of   The Regional Inspector General/San Salvador conducted this audit to determine if
Results      USAID/Nicaragua’s Cognizant Technical Officers (CTOs) were managing
             implementation activities in accordance with USAID policies (page 6).

             USAID/Nicaragua’s         Cognizant     Technical     Officers    were     managing
             implementation activities in accordance with USAID policies for 11 of 15
             selected activities. USAID/Nicaragua’s CTOs should improve management of
             four activities which included reviewing indirect cost rates annually, conducting
             regular site visits, preparing variance analyses, and evaluating recipient’s program
             effectiveness at the end of the project (page 6).

             We made four recommendations to address the items discussed in this report. We
             recommended that USAID/Nicaragua (1) provide training to CTOs to better
             understand the process of reviewing provisional and final/actual indirect cost
             rates; (2) establish a site visit plan for each award; (3) provide training to CTOs
             on performing variance analyses of performance and financial results; and (4)
             establish a procedure to ensure that CTOs prepare final evaluations of recipient’s
             program effectiveness at the end of the project for grants and cooperative
             agreements (pages 9-14).

             USAID/Nicaragua agreed with the findings and recommendations presented in
             this report (page 17).


Background   Many people participate in USAID’s acquisition and assistance (A&A) process to
             procure goods and services. To ensure that USAID implements this process
             efficiently and effectively, program managers need to be aware of and held
             accountable for performing numerous A&A responsibilities.

             While contracting officers and assistance officers may be the most visible
             members of a successful A&A workforce, USAID’s many Cognizant Technical
             Officers (CTOs) also have a critical role. The term Cognizant Technical Officer
             is used by USAID in lieu of the other U.S. government terms such as contracting
             officer’s technical representative or contracting officer’s representative and
             denotes that CTOs can be responsible for grants as well as contracts. The purpose
             of CTOs is to act as the contracting officers’ technical representatives to ensure
             that awardees are accomplishing desired objectives in accordance with U.S. laws
             and with USAID policies and procedures.

             Contracting officers designate members of strategic objective teams as CTOs to
             perform administrative functions and to provide technical advice on acquisition
             and assistance awards. The Automated Directives System (ADS) 303.3, 202.3.6,
             award agreements and CTO designation letters define the actions that Cognizant
             Technical Officers should take in managing project implementation.



                                                                                               5
                 The audit encompassed the assistance and acquisition instruments of all active
                 Cognizant Technical Officers at USAID/Nicaragua as of the first day of
                 fieldwork, November 1, 2004. There were 10 CTOs and 18 awards with a total
                 value of $91,461,994 reviewed.


Audit            As part of its fiscal year 2005 audit plan, the Regional Inspector General/San
Objective        Salvador performed this audit to answer the following question:

                 •       Were USAID/Nicaragua's Cognizant Technical Officers managing
                         implementation activities in accordance with USAID policies?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Were USAID/Nicaragua's Cognizant Technical Officers                       managing
                 implementation activities in accordance with USAID policies?

                 USAID/Nicaragua’s Cognizant Technical Officers (CTOs) were managing
                 implementation activities in accordance with USAID policies for 11 of 15
                 selected activities. USAID/Nicaragua’s CTOs should improve management of
                 four activities which included reviewing indirect cost rates annually, conducting
                 regular site visits, preparing variance analyses, and evaluating recipient’s program
                 effectiveness at the end of the project.

                 For the purposes of this audit, activities identified as CTO responsibilities were
                 found in the Automated Directives System (ADS) 303.3, “Grants and Cooperative
                 Agreements to Non-Governmental Organizations,” ADS 202.3.6 “Direct
                 Contracting,” the contract terms and conditions stated in the awards, and CTO
                 designation letters. The following is a list of the activities that were performed by
                 the CTOs in managing their implementation activities (there were 10 CTOs and
                 18 awards reviewed):

                        Assuring compliance with the terms and conditions of the award;

                        Carrying out all responsibilities as delegated by the Agreement Officer in
                         the schedule of the award or noted under the "Substantial Involvement"
                         section of the cooperative agreement; promptly notifying the Agreement
                         Officer of any developments which could have a significant impact on the
                         award;

                        Preparing internal documents to support amendments to the award;

                        Approving recipient’s work plans;



                                                                                                    6
      Coordinating with USAID’s Office of Security to obtain necessary
       clearances for awardees and ensures proper return of all badges at end of
       agreement;

      Ensuring that all government-furnished property for use under award is
       properly disposed of or returned to USAID;

      Receiving appropriate CTO training/certification;

      Maintaining a CTO file that at a minimum included a copy of the
       designation letter, copy of the contract, correspondence with contractor,
       names of technical administrative personnel assisting CTO, copy of
       records, reports of CTO inspections and receiving/accepting documents;

      Ensuring that annual financial statement audits were conducted;

      Carrying-out all responsibilities as delegated by the Agreement Officer in
       the CTO designation letter; and

      Approving interim payments.

As noted from the list above, USAID/Nicaragua’s CTOs were managing
implementation activities in accordance with USAID policies. However, the
Mission should improve management activities by having CTOs perform the
following activities:

      Ensuring that recipient’s provisional indirect cost rates have been adjusted
       annually to reflect final/actual indirect cost rates;

      Maintaining contact including site visits and liaison with the recipient;

      Reviewing and analyzing all performance and financial reports as well as
       verifying timely delivery; and

      Evaluating the recipient’s program effectiveness at the end of the program
       and submitting the reports to the Agreement Officer, the Activity
       Manager, and the Contracting Officer, as appropriate.




                                                                                   7
Indirect Cost Rate Adjustments
Should Be Reviewed

 Summary: According to terms and conditions stated in the agreements of
 organizations with indirect cost rate provisions and the Negotiated Indirect Cost
 Rate Agreements established between USAID and those organizations, if the
 final rate determined was less than the provisional rate, the organization would
 be required to return the difference to USAID. USAID/Nicaragua’s Cognizant
 Technical Officers (CTOs) had not reviewed the indirect cost rate provisions
 established in awards to ensure that these rates were adjusted appropriately to
 reflect final/actual indirect rates during the life of the project. CTOs were not
 reviewing the provisional indirect cost rates because they were not aware of the
 Federal Acquisition Regulation requirements and did not fully understand the
 process for establishing, calculating, and adjusting indirect cost rates. Without
 careful review of the provisional and final/actual indirect rate adjustments, the
 CTOs would not be able to ensure that only amounts authorized to the
 recipients were paid and any refunds due to USAID were received.

The Federal Acquisition Regulation (FAR) 42.703, states that “indirect cost rates
[can be] established temporarily for interim reimbursement of incurred indirect
costs and adjusted as necessary pending establishment of final indirect cost rates.
Establishing final indirect rates [provides] for timely settlement under cost-
reimbursement contracts.”

According to terms and conditions stated in the agreements of the organizations
with indirect cost rate provisions and the Negotiated Indirect Cost Rate
Agreements established between USAID and those organizations, USAID’s
recipients must submit a proposal to establish a final indirect cost rate within six
months after its fiscal year end. Billings on awards must be adjusted if the final
rate varied from the provisional rate. If the final rate was greater than the
provisional rate and there were no funds available to cover the additional indirect
costs, the organization would not be able to recover all indirect costs. Conversely,
if the final rate was less than the provisional rate, the organization would be
required to return the difference to USAID.

Under ADS 202.3.6.1, Cognizant Technical Officers (CTOs) were required to
ensure that the contractor performed in accordance with the terms contained in the
contract and for approving payments. Therefore, the general duties assigned to
CTOs incorporate a review of indirect cost rates because they are both a
contractual compliance issue as well as a payment approval issue.

USAID/Nicaragua’s CTOs had not reviewed the indirect cost rate provisions
established in awards to ensure that these rates were adjusted appropriately to
reflect final/actual indirect rates during the life of the project. As part of the
contract close-out process, final indirect cost rates were reviewed to ensure



                                                                                  8
adjustments were made. However, the adjustments and refunds should not only
be part of the close-out process but should also be part of an annual process. Any
adjustments and refunds necessary should be requested annually to ensure that
these amounts are returned to the agency on a timely basis.

The organizations working with USAID/Nicaragua which had provisional indirect
cost rate clauses in the awards were Checchi and Company Consulting,
Cooperative for Assistance and Relief Everywhere, Inc., Management Sciences
for Health, Michigan State University, WINROCK, Cooperative League of the
USA, Florida International University, and Academy for Educational
Development.

Prior to the audit, CTOs were not reviewing the provisional indirect cost rates
because they were not aware of the FAR requirements and did not fully
understand the process for establishing, calculating, and adjusting indirect cost
rates. Without careful review of the provisional and final/actual indirect rate
adjustments, the CTOs would not be able to ensure that only amounts authorized
to the recipients were paid and any refunds due to USAID were received.

       Recommendation No. 1:                 We recommend that
       USAID/Nicaragua provide training to Cognizant Technical
       Officers to better understand the process for reviewing the
       provisional and final/actual indirect cost rates.


Regular Site Visits Should
Be Conducted

 Summary: ADS 303.3 requires CTOs to maintain regular contact including site
 visits and liaison with the recipient. However, site visits were not conducted for
 4 of the 18 recipients and for another four recipients, site visits were rarely
 conducted, only three times during the award term or 8 to 12 months apart, or
 less. Site visits were mostly unplanned and conducted when convenient for the
 CTO. Site visits had not been a priority for some CTOs. Without frequent site
 visits, the CTOs might not be aware of problems that arise or might not be able
 to resolve problems timely. Also, without frequent site visits, CTOs may not be
 able to effectively monitor recipient activities and program progress.
Site visits play an important role in managing projects to gather data on the work
practices of recipients, to observe progress towards program objectives, and
ensure that program objectives will be met. Through site visits, CTOs can
discover first hand from the recipients how the recipients carried out their daily
work and where they have encountered problems. The need for conducting site
visits is included in ADS 303.3.




                                                                                 9
The CTOs maintained frequent, daily or weekly, contact via email or phone with
recipients. However, for some recipients, site visits were not conducted regularly.
For example, site visits were not conducted at all for four of the 18 recipients. For
another four recipients, site visits were rarely conducted, only three times during
the award term or 8 to 12 months apart, or less. Site visits were mostly unplanned
and conducted when convenient for the CTO. Also, site visits had not been a
priority for some CTOs.

To maximize the benefits to be had with site visits and to better manage the
progress of implementation activities, site visits should be well planned and
conducted more frequently. A site visit plan that includes the following elements
could be prepared at the beginning of each project:

      Setting the focus for site visits - what the team wants to achieve; who
       would be interviewed; and what activities would be examined.

      Planning for site visits - determine how many site visits would be
       conducted throughout life of award; and time and date of when site visits
       would be conducted.

      Evaluating data gathered - group data; analyze the data gathered;
       determine if site visit conducted met goals; determine if any problems
       need to be resolved; determine if more site visits than initially planned
       needed; determine if follow-up site visits are necessary; and determine if
       data gathered supports the progress reports received from the recipients

Without a site visit plan, the CTOs would not be obligated to conduct frequent
site visits to monitor recipient activities and program progress. The CTOs might
not be aware of problems that arise and ensure that they are resolved timely.
Furthermore, without a properly planned site visit, the CTO might not maximize
the benefits to be had from site visits.

       Recommendation No. 2:                   We recommend that
       USAID/Nicaragua’s Cognizant Technical Officers establish a
       site visit plan for each award that includes (a) setting the focus
       for the site visit, (b) planning for site visits, and (c) evaluating
       data gathered.




                                                                                  10
Variance Analysis of Performance and
Financial Results Should Be Performed

 Summary: CTOs did not perform a variance analysis of performance results
 and for financial results, CTOs had not performed variance analyses comparing
 planned versus actual expenditures. CTOs did not review the obligations,
 commitments, expenditures, unliquidated balances, or pipeline analyses.
 According to ADS 303.3, Grants and Cooperative Agreements to Non-
 Governmental Organizations, CTOs were responsible for “reviewing and
 analyzing all performance and financial reports as well as verifying timely
 delivery.” The CTOs were not preparing variance analyses of performance
 results as they had not recognized the importance of such analysis. For financial
 results, CTOs relied on the accounting and financial office to perform financial
 data analysis. Without a variance analysis of the performance results, the CTOs
 might not identify delays in completing outputs, or problems in output quality,
 or provide an early warning that results may not be achieved as planned. Also,
 without collaboration with the accounting and financial office to perform a
 variance analysis of the financial results, CTOs might not identify potential cost
 overruns, determine if implementation was more rapid than funds could be made
 available, or determine if unliquidated obligations were excessive and funds
 needed to be deobligated.


USAID/Nicaragua’s CTOs reviewed performance and financial results submitted
to them by the recipients. The reviews consisted of looking at the results
presented in the progress reports and determining, based on those results, if the
recipients were on target. However, the CTOs did not perform a variance analysis
of the performance results to determine if the actual results as compared to
planned results indicated that the recipients were indeed on target and able to
meet overall program objectives within the time frame established. For financial
results, the CTOs had reviewed financial data to determine monthly accruals, but
they had not performed variance analyses comparing planned versus actual
expenditures. CTOs did not review the obligations, commitments, expenditures,
unliquidated balances, or pipeline analysis. This function was performed by the
accounting and financial office.

According to ADS 303.3, Grants and Cooperative Agreements to Non-
Governmental Organizations, CTOs were responsible for “reviewing and
analyzing all performance and financial reports as well as verifying timely
delivery.” ADS 303.3.7.3 continues by suggesting that a comparison of planned
versus actual results is a valuable means of tracking the progress of an instrument,
activity, or strategic objective. Variations between the planned and actual results
may mean that there is a potential overrun, that the implementation schedule has
slipped and targets may not be met, or that planned outputs and results may have
to be modified. Conversely, variations could indicate that implementation is more
rapid than funds can be made available. For inputs that are interrelated, as in the



                                                                                 11
case of a construction activity that must be completed before certain equipment
should be delivered, this analysis might indicate that purchase of certain
equipment should be delayed. Also, when the CTOs compare actual to planned
expenditures, they should note whether the unliquidated obligations balance has
become excessive or is no longer needed for its original purpose and deobligate
the funds accordingly.

The CTOs were not preparing variance analyses of performance results as they
had not recognized the importance of such analysis. The CTOs considered the
reviews that they had conducted to be sufficient to monitor the progress of the
programs. For financial results, the CTOs had not focused on financial data
analyses, with the exception of preparing quarterly accruals. They relied on the
accounting and financial office to perform financial data analysis. Although the
accounting and financial office had the background to provide assistance with
financial data, they did not have the project and recipient knowledge that were
required to make financial decisions. Comparisons of planned versus actual
results to determine if potential cost overruns would occur, if implementation was
more rapid than funds could be made available, or if unliquidated obligations
were excessive and funds needed to be deobligated, are analyses that need to be
performed by the CTO with the assistance of the accounting and finance office.

Monitoring the quality and timeliness of outputs produced by implementing
organizations should be a major task and responsibility for the CTOs. Without a
variance analysis of the performance results, the CTOs might not identify delays
in completing outputs, or problems in output quality, or provide an early warning
that results may not be achieved as planned. Early action in response to problems
is essential in managing for results. Without collaboration with the accounting
and financial office to perform a variance analysis of the financial results, the
CTOs might not identify potential cost overruns, determine if implementation was
more rapid than funds could be made available, or determine if unliquidated
obligations were excessive and funds needed to be deobligated.

       Recommendation No. 3:              We recommend that
       USAID/Nicaragua provide training to Cognizant Technical
       Officers on performing variance analyses of performance and
       financial results.




                                                                               12
Recipient’s Program Effectiveness
Should Be Evaluated at End of Program

 Summary:        According to ADS 303.3, CTOs should be responsible for
 “evaluating the recipient’s program effectiveness at the end of the program and
 submitting a final report to the Agreement Officer and the Activity Manager.”
 CTOs had not prepared evaluations at the end of the programs as required by
 ADS 303.3. Also, none of the 10 CTOs reviewed had submitted a final report to
 the Agreement Officer and the Activity Manager evaluating the recipient’s
 program effectiveness at the end of the program for completed projects of grants
 and cooperative agreements. The CTOs were not aware of their responsibility
 for preparing and submitting such evaluations at the end of the programs, and
 USAID/Nicaragua’s management had not requested these evaluations. Without
 final evaluations of the awardees, USAID might not conduct procurements
 efficiently and might not be able to provide USAID recipients with useful
 feedback.


According to ADS 303.3, CTOs should be responsible for “evaluating the
recipient’s program effectiveness at the end of the program and submitting a final
report to the Agreement Officer and the Activity Manager.” According to ADS
302.5.9, “it is USAID policy that contracts in excess of $100,000, including
individual task orders under indefinite quantity contracts, must be evaluated at
least annually (for contracts exceeding one year in duration) and on completion of
activities, as required by FAR 42.1502.”

The CTOs prepared interim Contractor Performance Reports in accordance with
ADS 302.5.9, but had not prepared evaluations at the end of the programs as
required by ADS 303.3 and 302.5.9. Also, none of the 10 CTOs reviewed had
submitted a final report to the Agreement Officer and the Activity Manager
evaluating the recipient’s program effectiveness at the end of the program for
completed projects of grants and cooperative agreements.

According to a USAID/General Policy on Contractor Performance Reports, dated
December 8, 2004, Contractor Performance Reports provide a retrievable record
of performance for the Contractor and for government agencies to use as past
performance information when assessing the performance risk associated with a
specific acquisition during the source selection process. Equally important is the
use of Contractor Performance Reports as a management tool in giving the
contractor an indication of how the government views its performance during a
given period of time. The ability to utilize current Contractor Performance
Reports for USAID procurements provides significant efficiency on how USAID
conducts procurements and reduces the burden on USAID Contracting Officers
and CTOs worldwide from undertaking individual performance reviews for any
particular procurement.




                                                                               13
                The CTOs were not aware of their responsibility for preparing and submitting
                such evaluations at the end of the programs, and USAID/Nicaragua’s
                management had not requested these evaluations. Without final evaluations of the
                awardees, USAID might not conduct procurements efficiently and might not be
                able to provide USAID recipients with useful feedback.

                       Recommendation No. 4:                 We recommend that
                       USAID/Nicaragua establish a procedure to ensure that
                       Cognizant Technical Officers (a) prepare final evaluations of
                       recipient’s program effectiveness at the end of the program for
                       grants and cooperative agreements and (b) submit final
                       evaluation reports to the Agreement Officer.


Evaluation of   USAID/Nicaragua agreed with the findings and recommendations presented in
Management      this report.  Accordingly, management decisions were made for the
                recommendations. USAID/Nicaragua comments are included in their entirety in
Comments
                Appendix II.

                Recommendations one, three, and four have been slightly changed from the draft
                report to reflect management views. Recommendation four excluded reference to
                contract instruments because the Mission has established a process for ensuring
                final evaluations for contract instruments upon receiving the USAID/General
                policy on Contractor Performance Reports issued on December 8, 2004.

                Determination of final action will be made by the Bureau for Management’s Office
                of Management Planning and Innovation (M/MPI/MIC).




                                                                                             14
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador audited the management activities
              performed by USAID/Nicaragua’s Cognizant Technical Officers (CTOs) in
              accordance with generally accepted government auditing standards at
              USAID/Nicaragua from November 1, 2004 to November 5, 2004 and from
              November 15, 2004 to November 18, 2004.

              In planning and performing the audit, we obtained an understanding of internal
              control related to CTOs managing of implementation activities. These internal
              controls consisted of review of monthly and/or quarterly performance and
              financial reports from the recipients, preparing quarterly accruals, maintaining
              contact with the recipients, and receiving annual evaluations from their
              supervisors.

              The audit encompassed all active CTOs as of the first day of fieldwork,
              November 1, 2004. There were 10 CTOs and 18 awards with total value of
              $91,461,994 reviewed.

              Methodology

              To answer the audit objective, we interviewed all 10 CTOs at USAID/Nicaragua,
              the Acting Controller, the Financial Analyst, as well as the Contracting Officer.
              Our interviews were conducted to determine if the CTOs were performing their
              CTO responsibilities as required by ADS 303, 202, the grant or contract terms and
              conditions, and the CTO designation letters.

              We reviewed each contract and CTO designation letter to identify CTO
              responsibilities identified in these documents. Furthermore, we reviewed contract
              files and CTO files (e.g., recipient performance and financial reports, recipient
              work plans, recipient audit reports, site visit reports, vouchers approved, property
              disposition reports, and accrual worksheets) to determine if the CTOs were
              managing implementation activities in accordance with the requirements of ADS
              303, 202, agreement documents, and CTO designation letters.

              In determining the significance of our findings, we applied the following criteria
              for issuing an opinion:

                 •    An unqualified opinion would be issued if the CTOs performed 100
                      percent of the selected responsibilities required by ADS 303, 202,
                      agreements, and CTO designation letters.




                                                                                               15
•   A qualified opinion would be issued if the CTOs performed 70 percent to
    99 percent of the selected responsibilities required by ADS 303, 202,
    agreements, and CTO designation letters.

•   An adverse opinion would be issued if the CTOs performed less than 70
    percent of the selected responsibilities required by ADS 303, 202,
    agreements, and CTO designation letters.




                                                                        16
                                                                                           Appendix II


Management
Comments

    MEMORANDUM

    DATE:          January 24, 2005

    TO:            Regional Inspector General/San Salvador, Steven H. Bernstein

    FROM:          USAID/Nicaragua Acting Director, Alexander Dickie

    SUBJECT:       Mission Response to Recommendation Nos. 1-4, Audit Report 1-524-05-00X-P,
                   “Audit of Management Activities of USAID/Nicaragua’s Cognizant Technical
                   Officers,” dated December 17, 2004


    We appreciate your and your staff’s efforts in helping USAID/Nicaragua further improve its
    operating procedures, ensuring continued full compliance with Agency policies. We are pleased
    to know that our Mission’s Cognizant Technical Officers (CTOs) are managing implementation
    activities in accordance with USAID policies. The following are our responses for each of the
    recommendations in the above-referenced audit report.

           Recommendation No. 1: We recommend that USAID/Nicaragua provide
           training to Cognizant Technical Officers to better understand the process for
           reviewing the provisional and final/actual indirect cost rates.

    USAID/Nicaragua agrees with the recommendation. To address this recommendation, the
    Mission will provide training on reviewing the provisional and final/actual indirect costs rates for
    all CTOs.

    Estimated completion date:    July 31, 2005

           Recommendation No. 2: We recommend that USAID/Nicaragua’s Cognizant
           Technical Officers establish a site visit plan for each award that includes (a)
           setting the focus for the site visit, (b) planning for site visits, and (c) evaluating
           data gathered.

    USAID/Nicaragua concurs with this audit recommendation, and proposes the following actions:

    The Mission will issue a Mission Order that establishes procedures for preparing site visit plans,
    and a standard reporting form will be developed. All CTOs will be required to develop such
    plans for each award. The plan, which will be updated at least semi-annually, will include: a) a



                                                                                                     17
description of the focus and purpose of each visit; b) the number of site visits planned throughout
the life of award; and c) proposed dates for site visits.

Furthermore, CTOs will be required to evaluate data gathered. The Mission currently requires
that travel reports be filed after each in-country site visit. Using this travel report as a base, the
Mission will develop an expanded form that includes: a) an analysis of the data gathered; b) a
determination whether the site visit met stated goals; c) a description of any problem(s) to be
resolved; d) requirements for follow-up field visits; and e) a determination if data gathered
supports the progress reports received from the recipients.

A workshop on these new procedures will be conducted to enhance understanding among CTOs,
and to encourage standardization of site visit plans and report formats.

Estimated completion date:     July 31, 2005

       Recommendation No. 3: We recommend that USAID/Nicaragua provide
       training to Cognizant Technical Officers on performing variance analyses of
       performance and financial results.

USAID/Nicaragua concurs with this audit recommendation. To address this, the Mission will
provide training to CTOs on conducting variance analyses of performance and financial results.
Such training will include guidance for comparing planned versus actual results of financial and
program performance data.

Estimated completion date:     July 31, 2005

       Recommendation No. 4: We recommend that USAID/Nicaragua establish a
       procedure to ensure that Cognizant Technical Officers (a) prepare final
       evaluations of recipient’s program effectiveness at the end of the program for
       grants and cooperative agreements and (b) submit final evaluation reports to
       the Agreement Officer.

USAID/Nicaragua concurs with this recommendation. To address this, the Mission will issue a
Mission Order establishing procedures for CTOs to evaluate the recipient's program
effectiveness at the end of the award (for grants and cooperative agreements). A final report will
be submitted to the Agreement Officer.

The final evaluation will be similar to the Contractor Performance Report, but may include other
pertinent information, as necessary, to adequately describe the performance and effectiveness of
the recipient. An evaluation report form will also be developed to standardize reporting.

Estimated completion date:     July 31, 2005

We are providing our comments in two formats: an unsigned Microsoft Word file and a signed copy
in Acrobat PDF file. Please let me, or Cynthia Pruett, the Mission’s Audit Action Officer, know if
you have questions or need further information.



                                                                                                   18
